<html>
<title> - BUDGET PRIORITIES: MEMBERS' DAY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








                    BUDGET PRIORITIES: MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

          HEARING HELD IN WASHINGTON, D.C., FEBRUARY 27, 2020

                               __________

                           Serial No. 116-22

                               __________

           Printed for the use of the Committee on the Budget







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                       Available on the Internet:
                            www.govinfo.gov
 
 
                            
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
41-284                   WASHINGTON : 2020
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
ROSA L. DELAURO, Connecticut         JASON SMITH, Missouri
LLOYD DOGGETT, Texas                 BILL FLORES, Texas
DAVID E. PRICE, North Carolina       GEORGE HOLDING, North Carolina
JANICE D. SCHAKOWSKY, Illinois       CHRIS STEWART, Utah
DANIEL T. KILDEE, Michigan           RALPH NORMAN, South Carolina
JIMMY PANETTA, California            KEVIN HERN, Oklahoma
JOSEPH D. MORELLE, New York          CHIP ROY, Texas
STEVEN HORSFORD, Nevada              DANIEL MEUSER, Pennsylvania
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            TIM BURCHETT, Tennessee
BARBARA LEE, California
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee
RO KHANNA, California

                           Professional Staff

                      Ellen Balis, Staff Director
                  Becky Relic, Minority Staff Director 
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., February 27, 2020..............

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     3
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     4
        Prepared statement of....................................     6
    Hon. Betty McCollum, A Representative in Congress from the 
      State of Minnesota.........................................     9
        Prepared statement of....................................    11
        Letters and articles submitted for the record............    16
    Hon. Ted Budd, A Representative in Congress from the State of 
      North Carolina.............................................    46
        Prepared statement of....................................    48
    Hon. Michael C. Burgess, A Representative in Congress from 
      the State of Texas.........................................    52
        Prepared statement of....................................    54
    Hon. Ben Cline, A Representative in Congress from the 
      Commonwealth of Virginia...................................    57
        Prepared statement of....................................    59
    Hon. J. Luis Correa, A Representative in Congress from the 
      State of California........................................    61
        Prepared statement of....................................    62
    Hon. Michael Cloud, A Representative in Congress from the 
      State of Texas.............................................    64
        Prepared statement of....................................    66
    Additional statements submitted for the record...............    70

 
                    BUDGET PRIORITIES: MEMBERS' DAY

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2020

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m., in 
room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth; Womack, and Hern.
    Chairman Yarmuth. The hearing will come to order. Good 
morning, and welcome to the Budget Committee's Members' Day 
hearing.
    I look forward to this annual hearing because it gives us 
the opportunity to hear from our colleagues on the budget 
issues of great importance to them. We appreciate everyone for 
appearing before the Committee this morning, and look forward 
to your testimony.
    I will now yield myself five minutes, which I won't use, 
for an opening statement.
    Last year, with the support of both Republican and 
Democratic Members of this Committee, and after months of 
deliberations, Congress put in place bipartisan budgets for 
2020 and 2021, complete with rational discretionary top lines 
allowing strong investments in our national and economic 
security.
    As that work was underway, I used this Chairmanship to 
revitalize the Committee with the goal of providing much more 
aggressive oversight of the budget. We have held hearings 
addressing some of the biggest economic issues facing our 
nation, including the benefits of immigration reform, the costs 
of climate change, aging infrastructure, income inequality, the 
potential costs of debt, the federal government's vital role in 
mitigating economic downturns, tax policy, and more. These 
issues will continue to impact and, in some cases, dictate our 
nation's economic outlook and fiscal health.
    So, while we already have a budget in place for this year 
and the next, as the--at the pace Congress moves, it is never 
too early to start preparing for 2022. With the expiration of 
the Budget Control Act of 2011, the budget resolution will once 
again be Congress's primary tool for developing and enforcing 
our fiscal policies. This hearing will provide us with an 
opportunity to hear the budget priorities of our colleagues as 
we move forward with those discussions.
    At the same time, and in the face of a President who has 
flouted our budget laws, and repeatedly trampled the lines of 
executive budgetary power, this Committee will fight to enforce 
and strengthen Congress's power of the purse, provide oversight 
of the people's budget, and ensure that the warped vision the 
President presented in his 2021 budget does not come to 
fruition.
    Good governing and responsible budgeting requires smart, 
often difficult, choices. This process begins by evaluating the 
tradeoffs our choices require while taking into consideration 
the long-term effects and benefits. It includes considering 
both revenues and spending, and our goal must be to better 
serve the American taxpayers, and prepare our nation's budget 
for the future. It is my hope that this hearing will provide 
insight into which issues and longer-term budgetary challenges 
this Committee should examine as we work to build an economy 
that works for all Americans, not just the wealthy and 
corporations.
    I thank Members for taking time out of their busy schedules 
and speaking before the Committee today. I look forward to 
hearing from each of you.
    [The prepared statement of Chairman Yarmuth follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I now yield five minutes to the Ranking 
Member.
    Mr. Womack. I thank the Chairman. Each year this hearing is 
an important step in the Budget Committee's task of crafting a 
budget resolution for the fiscal year. It provides Members of 
the Committee the opportunity to hear from our colleagues from 
across the country. Historically, their diverse voices have 
been an important part of the conversation to map out the 
nation's fiscal blueprint.
    But this year is a bit different. Why are we having this 
hearing, when we aren't doing a budget resolution?
    I don't think a single Member of this Committee would deny 
the importance of gathering input from our colleagues to help 
inform decisionmaking in the budget process. However, we didn't 
do a budget last year. We are not going to do a budget this 
year. So I have to question the point of the exercise today.
    This Committee's failure to execute its central 
responsibility and put forward a budget should be deeply 
unsettling to everyone here and at home. Why? Our fiscal 
trajectory, it is not sustainable. Unless we take significant 
action, this trend will soon begin to impact every aspect of 
American life, from the strength of our economy to national 
security efforts.
    Last month CBO director Phill Swagel told us that, in 
Fiscal Year 2020, the deficit will be over $1 trillion--that is 
with a T. That is an increase of $31 billion from last year, 
the first year since Fiscal Year 2012 that the deficit will 
eclipse $1 trillion.
    It gets worse. On the current path the deficits are 
projected to eclipse $1 trillion every year over the next 10. 
That is more than $13 trillion over the budget window by fiscal 
2030.
    So what is driving these deficits? The answer is pretty 
simple: out of control, unchecked mandatory spending.
    Today mandatory spending accounts for 70 percent of the 
federal budget. It is on track to reach an alarming 76 percent 
by fiscal 2030. Because our country's mandatory spending 
continues to balloon, federal spending will consume an ever-
expanding share of economic resources. It will rise from 21 
percent of GDP this year to 23.5 percent of GDP in 2030. Now, 
that is far in excess of the 20.4 percent annual average of the 
past 50 years.
    Now, what do these numbers mean for hardworking American 
families and workers? Simply put, it is not good. It means that 
the programs they are paying into today and are counting on for 
tomorrow may not be available when they need them the most. It 
also means that there will be fewer dollars for essential 
government operations such as defense, homeland security, 
education, maybe even COVID-19.
    Despite these very real fiscal challenges and warnings from 
outside experts, we continue to hear about Democrat proposals 
with astronomical price tags: Medicare for All, the Green New 
Deal. They will propose budget-busting policies, but they won't 
produce a budget.
    So I will continue to ask my colleagues on the other side 
of the aisle, how will you reconcile your party's desire to 
uncontrollably spend with a pressing need to address the 
exploding national debt?
    How will you do this without crafting a budget for the 
second straight year?
    We have a moral obligation to get our fiscal house in 
order. If we don't act, the burden of our irresponsibility will 
be left on the backs of our children and our grandchildren. 
And, as I often say in my meetings at home, our grandchildren's 
grandchildren. The most logical step toward reversing course is 
this Committee to do its most basic job: pass a budget, take it 
to the floor, and let's have a robust discussion about the 
priorities of our country. I trust and hope that my colleagues 
will reflect on this point.
    And Mr. Chairman, I, before I yield back the balance my 
time, recognize the fact that you were with me when we were 
trying to do process reform that would actually lead to this 
Committee--strengthen this Committee, and get this Committee 
back on the path of doing its job. And it is high time that we 
get back to that business.
    [The prepared statement of Steve Womack follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Womack. I yield back the balance.
    Chairman Yarmuth. I thank the Ranking Member for his 
comments and, as--yes, we tried. We can continue to try.
    So as--I will now begin to recognize the Members in order 
of their arrival here.
    As Member--as a reminder, Members appearing before the 
Committee will have five minutes to give their oral testimony, 
and their written statements will be made part of the formal 
hearing record.
    In addition, Members of the Committee will be permitted to 
question witnesses following their statements. But out of 
consideration for our colleagues' time, I would ask that you 
please keep your comments brief.
    And with that, I recognize the gentlewoman from Minnesota, 
Ms. McCollum.

STATEMENT OF HON. BETTY MCCOLLUM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Ms. McCollum. Good morning, and thank you, Chairman Yarmuth 
and Ranking Member Womack. I want to thank you for this 
opportunity for Members to bring our legislative priorities 
before the Budget Committee today.
    I am here to speak with you about H.R. 1128, the Indian 
Programs Advanced Appropriation Act. As Chair of the Interior 
Environment and Appropriations Committee, I have heard from 
tribal leaders for many years about the difficulties of 
operating essential government services in the areas of health 
care, education, and public safety under the uncertainty of 
continuing resolutions and shutdowns.
    It was at the request of those tribal leaders that I 
introduced H.R. 1128, which has 48 bipartisan cosponsors, along 
with Republican and Democratic appropriators who are our 
cosponsors. We did this in order to provide much-needed 
stability to tribal governments and to Native American 
communities.
    Providing federal funds for Indian programs a full year in 
advance will ensure that the federal government can better meet 
its commitment to uphold trust and treaty responsibilities 
throughout Indian country. It is an important issue of pressing 
importance for all tribal nations. And I am proud to say that 
the congressional effort on this issue has truly not been just 
bipartisan, but non-partisan, as Mr. Womack can attest to the 
work that we do on our Committee on this issue.
    The 35-day government shutdown last year put a tragic 
spotlight on the clear need for advanced appropriations for the 
Bureaus of Indian Affairs, Indian Education, and for Indian 
Health Service. Access to insulin, physical therapy was 
compromised when clinics had to close or cut back services that 
help at their clinics. Basic everyday needs like tribal justice 
services, social services for children, families, and seniors, 
when unfunded, putting Native American communities at risk--
emergency maintenance staff for tribal schools were 
unavailable. And roads went unplowed in the snow, impacting 
public safety.
    The federal government has a legal and moral responsibility 
to ensure funding for our trust and treaty responsibilities, 
and that is not interrupted by delays in appropriations. H.R. 
1128 provides advanced appropriations to ensure that a future 
shutdown would not disrupt the critical funding for native or--
that native communities rely on.
    Within the interior appropriations bill we have already 
dedicated resources over several years to achieve forward 
funding in some parts--the Bureau of Indian Education budget. 
That meant that tribal schools could keep operating during a 
shutdown, successfully protecting Native American students' 
education. But without this Committee, the Budget Committee's 
help, we simply do not have the ability to provide advanced 
funding for all of the Bureau of Indian Affairs and Indian 
Health Services budgets.
    Each year the Interior Appropriations Committee holds two 
days of public witness hearings with tribal leaders to hear 
about funding priorities in Indian country. For the past two 
years, we have heard overwhelmingly, over again and again, 
about the priority of advanced appropriations for tribal 
nations.
    While government shutdowns are damaging to all of our 
communities, they are disproportionately harmful to Native 
Americans. We cannot allow the health and safety of tribal 
communities to be put at risk because the House, the Senate or 
the Administration can't finish their work on time. Because of 
the federal government's past failures, tribal governments, 
tribal organizations, and our fellow Americans representing 
hundreds of individual tribal nations support advanced 
appropriations for Indian country.
    I would like to submit for the record letters and 
resolutions from the National Congress of American Indians; the 
Indian--the National Indian Health Board; Self-Governance 
Communication and Education Tribal Consortium, and other tribal 
governments and regional tribal organizations. They call on 
Congress to act and pass appropriations for our basic trust and 
treaty responsibilities.
    Thankfully, this Committee already has a model to look to 
where Congress provided advance appropriations to uphold its 
obligations. In 2009, Congress overwhelmingly passed 
legislation to provide Veterans Health Administration with 
advanced appropriations. In every budget resolution the House 
now provides an exception for allowing for advanced 
appropriations for the medical services and the facilities 
provided for the VA. We took steps to ensure that our national 
commitment to care for our veterans was supported with a stable 
budget, even in uncertain political times.
    Our fellow citizens throughout Indian country deserve no 
less when it comes to their health care and their safety.
    Mr. Chairman, Ranking Member, I thank you for the time.
    [The prepared statement of Betty McCollum follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Yarmuth. I thank the gentlewoman. And without 
objection, her submissions will be included in the record. So 
ordered.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Yarmuth. Are there any comments or questions of 
Ms. McCollum?
    Thank you very much.
    Ms. McCollum. I thank the Committee.
    Chairman Yarmuth. I now recognize the gentleman from North 
Carolina, Mr. Budd, for five minutes.

 STATEMENT OF HON. TED BUDD, A REPRESENTATIVE IN CONGRESS FROM 
                  THE STATE OF NORTH CAROLINA

    Mr. Budd. Chairman Yarmuth, Ranking Member Womack, Members 
of the Committee, thank you for the opportunity to testify 
today.
    So, as a small business owner and someone who brings an 
outsider's perspective to Washington, I want to sound the alarm 
on our country's out-of-control fiscal situation. Right now the 
national debt stands at more than $23 trillion, which is 
roughly the equivalent of $70,000 for each man, woman, and 
child in America. And the budget deficit is set to break $1 
trillion this year.
    We have to take action and reverse course. The path we are 
on is simply unsustainable, and risks triggering a financial 
crisis that would undermine the prosperity of the American 
people. That is why I recently introduced a resolution, along 
with my fellow Members of the North Carolina delegation, 
calling for an end to Washington's spending addiction.
    My resolution simply states that Congress should not raise 
the debt ceiling without making significant fiscal and spending 
reforms that would put us back on track toward a balanced 
budget. More specifically, I launched a series called--and you 
will enjoy this--``Budd's Budget Busters,'' to highlight 
examples of government waste, fraud, abuse, and mismanagement, 
along with common-sense solutions that Congress can act on to 
save taxpayer dollars.
    The first instance of government waste I highlighted is the 
millions of taxpayer dollars being sent to individuals who are 
not even alive. For example, a 2015 Social Security 
Administration inspector general report found that 6.5 million 
people in the system that are implausibly 112 years or older. 
The Department of Veterans Affairs paid out an estimated $37.7 
million to deceased veterans in 2016. Over $1 billion has been 
paid to farmers who have been dead for over three years. 
Medicare paid for $3.6 million in prescription drugs for dead 
beneficiaries.
    The fact that the federal government is unable to 
distinguish between the living and the dead is simply absurd, 
especially when a simple fix is available. That is why I 
applaud my colleague, Representative Gianforte, for introducing 
H.R. 2543, the appropriately named Stop Improper Payments to 
Deceased People Act. The bill grants federal agencies access to 
Social Security Administration's death data base, and puts new 
procedures in place that force agencies to consider death data 
before making payments. Passing legislation like this is common 
sense. It is simply a no-brainer.
    Another example of government waste that I highlighted was 
the fact that 75 percent of the federal government's IT funding 
goes toward maintaining outdated legacy software. For example, 
the Department of Justice and the Social Security 
Administration still operate programming code from the 1950's 
and 1960's. The Department of Treasury still uses a pair of 
nearly 60-year-old systems. The Department of Veterans Affairs 
maintains veteran's benefits on more than a 50-year-old system. 
Most incredibly, the Department of Defense uses an over 50-
year-old system of 8-inch floppy disks to operate our country's 
nuclear arsenal.
    As the tech revolution continues to impact every aspect of 
our lives, we have to make sure that our government isn't left 
in the dust. The private sector can be a vital resource for 
demonstrating how to effectively modernize cutting-edge tools 
like cloud and blockchain and digital ledger technology. That 
is why Congress should perform enhanced oversight in the form 
of hearings and testimony that enact new legislation where it 
would be needed. Agencies and departments should be held 
accountable for the snail's pace of technological change in our 
federal bureaucracy.
    In the three years that I have been here, I have voted 
against many budgets that ignore our national debt and kick the 
can further down the road. But I look forward to working with 
all of you to reverse course, and start pursuing policies that 
will reduce our national debt for our kids and our grandkids. 
The time is now to rein in Washington spending addiction. Thank 
you again for the opportunity to testify. I yield back.
    [The prepared statement of Ted Budd follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you for your testimony, and I 
particularly appreciate your calling attention to the fact that 
our--a lot of our technological capabilities in this country 
are so outmoded. And that is, I think, an important thing that 
this Congress ought to focus very intently on.
    Mr. Budd. Thank you.
    Chairman Yarmuth. Do any other Members have any comments or 
questions?
    Thank you again for your testimony.
    I now recognize the gentleman from Texas, Mr. Burgess, for 
five minutes.

   STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. I thank the Chair. Republican Leader Womack, 
thank you for giving me the opportunity to present priorities 
for Fiscal Year 2021.
    I want today to discuss health care, technological 
advancements on deployment, and energy solutions. Of course, I 
sit on the Committee on Energy and Commerce, and these are the 
priorities on the Republican side of the dais, at least in the 
Committee on Energy and Commerce.
    First off, we know Americans care about how much they are 
spending on prescription drugs. They worry about their ability 
to afford the medications that they need. Some patients ration 
their insulin, while others choose between medications and 
food.
    There is a bipartisan consensus that Congress can act to 
bring down prescription drug costs. We considered Medicare part 
D reform, including capping seniors' out-of-pocket costs. The 
Energy and Commerce and Ways and Means put out bipartisan 
requests for information, and received more than 80 responses. 
Unfortunately, these conversations were sidelined while 
attention was wrapped up in the Speaker's bill, H.R. 3, last 
October.
    So I urge other Members to consider the provisions included 
in H.R. 19, the Lower Cost, More Cures Act of 2019. This bill 
includes bipartisan solutions to lower drug costs, and protects 
access to new treatments and new cures. H.R. 19 does cap out-
of-pocket costs in Medicare part D, protecting seniors from the 
high cost of prescription drugs, and caps set at $3,100 a year, 
caps the cost of insulin at $50 a month.
    H.R. 19 also contains provisions aimed at access to 
prescription drugs in rural areas by reforming the so-called 
direct and indirect remuneration fees largely administered by 
pharmacy benefit managers.
    There is a lot that Congress can be doing to the cost--for 
the cost of drugs to deliver for the American people. H.R. 19 
is an example of bipartisan policies that could become law and 
directly impact drug costs that patients incur. The provisions 
mentioned today are just some of the common-sense and 
bipartisan solutions that should be considered.
    The Fiscal Year 2021 budget should include funding to 
ensure the United States' preeminence in fifth-generation 
mobile technology. The 5G rollout will require rural broadband 
deployment and a trained work force to install the necessary 
infrastructure.
    In addition, the National Institute of Standards and 
Technology must have the resources to contribute to global 5G 
standards, and the National Telecommunication and Information 
Agency must manage the federal spectrum. This includes working 
with the Federal Communications Commission and industry to 
auction spectrum and protect current incumbents.
    Additionally, consumers are concerned about their data 
privacy. The Energy and Commerce Committee is currently 
negotiating federal privacy law that will require the oversight 
of the Federal Trade Commission to ensure that industry does 
not engage in deceptive practices when implementing privacy 
policies. The Federal Trade Commission will require technically 
trained personnel to fulfill this responsibility.
    Another technology, autonomous vehicles. The infamous self-
driving car will improve mobility and increase safety on our 
roadways, and we should prioritize funding for the National 
Highway Traffic Safety Agency to be able to certify the safety 
features of these vehicles, allow testing exemptions when 
necessary, but also issuing recalls and regulations where 
necessary. This includes expertise within the Office of Defects 
Investigations and a consumer-facing education campaign on 
recall completion. The traveling public deserves adequate 
resources to ensure their safety.
    The President's budget funds important energy research 
projects, including projects such as the Versatile Test 
Reactor, the Energy Storage Grand Challenge, and artificial 
intelligence capabilities. These smart investments in nuclear 
power, energy storage, and advanced computing will ensure 
energy independence and conservation for our future.
    Congress must consider resources for energy efficiency, 
including programs like the Energy Star. This has saved 
Americans billions of dollars, and certainly should be 
preserved to ensure consumers make informed energy decisions.
    And let me just say I agree with Ranking Member Womack 
about the absence of a budget. It is difficult to negotiate and 
navigate these issues without that. And in fact, yesterday, in 
our hearing that we finally had on COVID-19, there was a lot of 
criticism about the President's budget. But it is difficult to 
criticize the President's budget when we will not propose our 
own budget in the people's House, and have not for the last 
several congresses.
    I appreciate the attention, and I will yield back my time.
    [The prepared statement of Michael C. Burgess follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    Chairman Yarmuth. The gentleman yields back. And I think it 
is safe to say the gentleman from Texas and I have rarely found 
areas of agreement over the years, but I find myself in 
agreement with much of what you said, and I thank you for your 
testimony.
    But I will say it--actually, it is easy to criticize the 
President's budget without doing our own. But thank you for 
your testimony.
    [Laughter.]
    Chairman Yarmuth. Anybody else have a comment or question?
    Mr. Womack. Was H.R. 19 subject to a markup?
    Mr. Burgess. H.R. 19 was considered as a Republican 
substitute to H.R. 3----
    Mr. Womack. To H.R. 3.
    Mr. Burgess. So it didn't have its own separate markup from 
H.R. 19. But every one of those provisions had--at some point 
had a legislative hearing and again, was included in the 
Republican amendment in the nature of a substitute.
    Mr. Womack. I thank the gentleman.
    Chairman Yarmuth. Once again, Mr. Burgess, thank you for 
your testimony.
    I will now recognize the gentleman from Virginia, Mr. 
Cline, for five minutes.

STATEMENT OF HON. BEN CLINE, A REPRESENTATIVE IN CONGRESS FROM 
                  THE COMMONWEALTH OF VIRGINIA

    Mr. Cline. Thank you, Chairman Yarmuth, Ranking Member 
Womack, Members of the Committee. I am back again this year.
    I came last year to testify about the need to aggressively 
pursue a path to a balance in our federal budget and begin to 
address our exploding deficits and ballooning national debt. I 
think it is important to reiterate that we need to reintroduce 
four words to Washington that we use in Richmond and across 
state capitals time and time again: We can't afford it.
    Our federal debt is now over $23 trillion. It is 
discouraging to my constituents back home that the last time a 
federal budget with a surplus was signed into law was 1997, 23 
years ago. As lawmakers, we need to restore confidence in 
Congress and in our federal government by restoring fiscal 
responsibility to our budget process.
    Balancing the federal budget has become a challenge because 
the federal government overreaches across a wide swath of 
areas. I commend past and current champions who are committed 
to undertaking the large job of balancing the budget by 
negotiating across the aisle, across chambers, between the 
House and the Senate, and with both Democrat and Republican 
administrations. Such negotiations led to the deficit 
reductions that created the 1997 surplus. I am committed to 
being a champion for a balanced budget, and hope that the 
Committee Members will make that same commitment.
    The implications of failing to pass a budget, not even 
considering one that leads to balance, are grave. It puts our 
national security at risk. It steals opportunities from the 
hands of future generations. And it is, ultimately, 
unsustainable.
    The bottom line is that we ask Americans to balance their 
budgets and, as lawmakers who are entrusted by constituents to 
use discretion and exercise discipline when spending their 
hard-earned money, we must move to craft and pass a fiscally 
responsible budget that balances to the forefront of our 
legislative agenda.
    And I thank the Chairman for his time, and I will be happy 
to answer any questions.
    [The prepared statement of Ben Cline follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I thank the gentleman.
    Any questions or comments from the Members?
    Thank you very much for your testimony.
    I now recognize the gentleman from California, Mr. Correa, 
for five minutes.

STATEMENT OF HON. J. LUIS CORREA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Correa. Thank you, Chairman Yarmuth, Ranking Member 
Womack, and Members of this Committee. I thank you for the 
opportunity to testify before you today on certain national 
security priorities that I believe Congress should consider in 
this Fiscal Year 2021.
    To begin with, I would like to let you know that I chair 
the Subcommittee on Homeland, Transportation, and Maritime 
Security. The issue there the Coast Guard brought to my 
attention is the Arctic and, essentially, our northern border. 
That is our northern border. Now that the Arctic has 
essentially melted, we have the Russians on the other side, 
very close to us.
    We have issues, priorities, of minerals, oil, fisheries, 
and navigation. Currently, Russia has an icebreaker fleet of 
over 50 icebreakers. We have two. The Coast Guard has said they 
need at least six to begin to do their job adequately. And I 
would ask this Committee to please consider funding the Coast 
Guard's procurement construction improvement needs. It is, 
essentially, to guard our best interests on our northern 
border.
    Second, I would like to turn to an issue of importance to 
my district, and I think to the rest of the country, which is 
the national network of fusion centers. These fusion centers 
essentially serve a very important role of information sharing 
of criminal activities and criminal threats. This network of 69 
fusion centers do a really good job of working with the local, 
state, and federal agencies in coordinating and disseminating 
information when it comes to threats domestically, locally, and 
internationally.
    The President's proposal would cut these programs 
significantly. I would ask that we instead increase funding for 
these fusion centers, and make sure that we safeguard our 
communities both at the federal, national level, and local 
level.
    With that, I want to thank you, Mr. Chairman and Ranking 
Member and Members of this Committee for your time and 
interest.
    [The prepared statement of J. Luis Correa follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I thank the gentleman for his testimony.
    Any questions or comments of the Member?
    Mr. Correa. Thank you, sir.
    Chairman Yarmuth. Thank you very much, once again.
    And now I recognize the gentleman from Texas, Mr. Cloud, 
for five minutes.

 STATEMENT OF HON. MICHAEL CLOUD, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Cloud. Thank you and good morning, Chairman. Chairman 
Yarmuth, Ranking Member Womack, Members of this Committee, 
thank you for having us here today.
    This Committee is tasked with the important constitutional 
obligation placed on Congress in article I, Section 8 to 
determine how much revenue should be collected from the 
taxpayers, and how much should be spent. The budget process is 
vital, because it is within that budget framework that we 
evaluate proposed legislation to ensure that we are spending 
within agreed-upon spending limits. Or at least that is how it 
is supposed to work.
    Last year I came to talk to you about a bill I introduced, 
H.R. 638, the Cost Estimates Improvement Act, which would 
require the CBO and JCT to include debt servicing costs in 
their estimates. I asked you to include it as part of the 
Fiscal Year 2020 budget process.
    We do not have the luxury of ignoring the true cost of our 
spending decisions. Our nation's outstanding debt is nearly 
$23.4 trillion, and climbing. And by the time we meet this time 
next year in this Committee, it will be over $24 trillion. In 
fact, according to the most recent budget outlook from CBO, 
over the next 10 years the annual deficits will reach $1.7 
trillion. Our national debt will reach nearly $35 trillion, and 
our annual interest payments will be $819 billion.
    These numbers are so big that it is hard for the average 
person to comprehend, but they represent a real threat to our 
nation's financial future. And we are increasing the deficits 
and debt at these alarming rates without a full and complete 
picture of the legislation we are voting on, because we 
regularly do not consider the interest cost.
    As Maya MacGuineas of the Committee for a Responsible 
Federal Budget explains, ``If the interest on the debt is not 
counted, the official scores of legislation can be deceptively 
low, especially when offsets would recur, year--would occur 
years in the future.'' American taxpayers in future generations 
deserve honest accounting, not more gimmicks that attempt to 
paper over our huge and unsustainable deficits.
    The folks back home understand this. If they were budgeting 
for a monthly car payment, and only considered the list price 
of the car itself, and didn't factor in the extra cost of the 
interest payments, they might discover later that the actual 
cost was more than they could afford. In essence, Congress does 
this very same thing by not considering the comprehensive 
budgetary impact of spending and taxing proposals. This 
distorts congressional decisionmaking in favor of more spending 
and debt accumulation than might otherwise be the case. Simply 
put, the debt servicing costs and legislative cost estimates 
would be--would better equip lawmakers to make informed 
spending decisions.
    My legislation also does one more important thing that 
would help lawmakers make better spending decisions. It 
requires cost estimates to include a list of duplicative 
programs with the covered legislation. For example, the 
President's budget documents released earlier this month noted 
that there are 91 federal programs to train health care 
professionals, and this is just one example of duplication 
across the federal government.
    If cost estimates were required to point out such 
duplication, it might give Members pause before voting to spend 
more taxpayer dollars on duplicative programs, and it would 
give us a better awareness toward evaluating and improving 
current programs.
    But the good news that--is--the good news is that, while 
legislation requiring consideration of interest costs is 
preferred, we do not need it in order to--we do not need 
legislation passed in order for us to begin counting the real 
costs of proposed legislation. The CBO is already capable of 
producing these numbers, and you have the power to ask for it 
in this Committee.
    Last month I sent a letter to the Chairman and Ranking 
Member, as well as your counterparts in the U.S. Senate, a 
bipartisan letter signed by myself and 56 of our colleagues. In 
the letter we asked that you direct the CBO to begin including 
debt servicing costs in all legislative cost estimates 
produced.
    Reining in our debt and our deficits only gets harder, the 
longer we wait. And we owe it to our constituents, particularly 
those of future generations, to make spending decisions with 
the most accurate information possible. This isn't a red or 
blue issue, a Republican or Democrat issue. This is just 
simple, good governance. I hope that you will consider this 
cost estimates reform as an important step toward improving our 
budget process.
    And I do thank you again for your time here today. I 
appreciate it.
    [The prepared statement of Michael Cloud follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Yarmuth. I thank the gentleman for his testimony.
    Any questions or comments?
    Yes, sir.
    Mr. Hern. Mr. Chairman, thank you. My colleague is exactly 
right. This isn't a red or blue issue. This is just common 
sense that every American, every business has to go through 
everywhere, every state, everywhere except the federal 
government.
    We found many of those kind of things. And I think, if you 
polled everybody individually, they would tell you the same 
thing. And why we can't do it, it is beyond me. I am going to 
find the answer, though.
    Mr. Cloud. Thank you, I appreciate it.
    Chairman Yarmuth. All right. Any other questions or 
comments?
    Well, thank you very much, once again, Mr. Cloud.
    And I want to thank again all the Members who appeared here 
today, and the Members who attended the hearing. And that 
completes our business for the day.
    So without objection, this hearing is adjourned.
    [Whereupon, at 10:40 a.m., the Committee was adjourned.]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
</pre></body></html>
